                    Office of Inspector General
                   Corporation for National and
                        Community Service




Audit of the Corporation for National and
    Community Service's Gift Fund

           OIG Report Number 04-13




                                                         Comaration for       a


                                                         NATIONAL
                                                         COMMUNI Y            !!?

                                 Prepared by:

                      Office of Inspector General
            Corporation for National and Community Service
                1201 New York Avenue, NW., Suite 830
                          Washinaton, DC 20525




 do not necessarily represent the final resolution of the issues presented.
                                             Audit of the Corporation for
                                              National and Community
                                                                                                                               I
                                                Service's Gift Fund


                                                    Table of Contents




                                                                                                                                   '
Executive Summary ..........................................................................................................1


                                                                                                                                   I
Background.. .......................................................................................................................
                                                                                                                                  2

Objectives, Scope, and Methodology .................................................................................2

                                                                                                                              ..I..4
Results ............................................................................................................................

Appendices

Status of Recommendations in Prior OIG Audit Report 97-30 ....................... Appendit A

Corporation Response ..................................................................................... ~ ~ ~ e nBd i k
                                            March 3 1,2004



Mr. David Eisner
Chief Executive Officer
Corporation for National and Community Service
1201 New York Avenue, NW.
Washington, DC 20525

Dear Mr. Eisner:

The Office of Inspector General has completed its audit of the Corporation for Natioinal
and Community Service's Gift Fund. I am pleased to report that Office of Inspecttor
General auditors found no significant weaknesses relating to the Gift Fund. However,
our auditors did identify certain areas of noncompliance with Corporation polices gnd
procedures that warrant corrective action.

Executive Summary

The Gift Fund is part of the Corporation's Fund Balance with the Department of the
Treasury, and includes donations received from individuals and organizations to hrtber
national service. The objectives of the audit were to: (1) determine if the Gift ~ u n dis
fairly presented on the Corporation's financial statements; (2) determine if the
Corporation's policies are in compliance with applicable laws and regulations; and [3)
determine if employees are complying with Corporation policies and procedures. In bur
opinion, the Gift Fund is fairly presented on the Corporation's financial statements For
fiscal years 2000 through 2003. We also found that Corporation policies and procedutes
comply with applicable laws and regulations. However, certain tests disclosed instan~es
of noncompliance with Corporation policies and procedures for which we +re
recommending corrective action.

After the Office of Inspector General notified the Corporation of this audit, and reques ed
documents, the Chief Financial Officer (CFO) performed an audit of Gift Fund recei ts
and expenditures for fiscal years 2000 through 2003. We agree with all thq'ee
                                                                                                        k
recommendations made in that review.' The Corporation's Gift Fund policies @d
operating procedures are being revised to reflect these recommendations.

 h he CFO recommended that Gift Fund procedures be revised to: ( 1 ) require gift acceptance officials to
annotate checks received with their official acceptance prior to transmittal to accounting for deposit;
(2) require all donations to be entered into the CEO controlled correspondence upon receipt to ensure tha
acceptance letters are sent in a timely manner; and (3) reflect changes in operations since the
implementation of Momentum and establishment of Executive Officers.
Audit of the Corporation for National and Community Service's Gift Fund
Audit Report 04- 1 3
Page 2

Background

Under its authorizing legislation, the Corporation can accept and use money or prog     :rty
donated to it in furtherance of the purposes of the national service laws (42 U.S.1     1.   9
1265 1g(a)(2)(A)). The legislation also requires the Corporation to report to Congres    on
the nature and amount of donations received, and how the Corporation used or dispc      sed
of such donations (42 U.S.C. 5 12651d(b)(9)). The Corporation uses separate ger         :ral
ledger accounts to record gifts and related expenditures and to report on Gift E        md
activity.

Gift Fund monies are expended by employees with purchase cards; the Corporati n' s
Office of Grants Management and its Service Centers through the issuance of grants;
the Office of Procurement Services (OPS) through contracts for the acquisition of
and services. The schedule below specifies Gift Fund donations and
fiscal years 2000 through 2003.


                    Gift Fund Donations and Expenditures Audited
                               Fiscal Years 2000 - 2003


         Beginning Balance: Oct. 1, 1999                       $           87,274

         Donations - Fiscal Years 2000-2003                          1,842,519

          Expenditures - Fiscal Years 2000-2003                      (1,275,824)

         Ending Balance: Sept. 30,2003                          !J        653.969




Objectives, Scope, and Methodology

The objectives of this audit were to: (1) determine if the Gift Fund is fairly
the Corporation's financial statements for fiscal years 2000 through 2003;
if the Corporation's policies are in compliance with applicable laws and regulations;
(3) determine if employees are complying with Corporation policies and procedures.
OIG reviewed the Corporation's Gift Fund policies and procedures to
with laws and regulations. The OIG also reviewed Gift Fund
Corporation compliance with its policies and procedures. We tested
Gift Fund operating procedures, including: Authorization,
AcceptanceIRejection of Donation, Receipt of Donation,
the General Ledger.
Audit of the Corporation for National and Community Service's Gift Fund
Audit Report 04- 13
Page 3

Authorization, OHer of Donation, Acceptance/Rejection of Donation, and Receip
Donation

In determining whether gifts were solicited and accepted in accordance with
policy, we reviewed $1,275,000, or 69 percent, of the donations received in
2000 through 2003. We tested to ensure that:

         (I) Only the Chief Executive Officer (CEO) or his designee(s) solicited, acce$ed
             or rejected, and expended donations;                                     ,
         (2) CEO delegations of authority to solicit, accept or reject, and exp~nd
             donations were in writing, and remained in effect for a period not to excieed
             one year, or until modified in writing by the CEO;
         (3) Such delegations were specific to the person and position served;
         (4) Offers of donations included a description and estimated value of the
             donation, and any specific purpose for, or condition on, the use of the
             donation;
         (5) The Corporation accepted the donations for the purpose of furthering the
             mission and goals of the Corporation;
         (6) The Corporation responded to each offer in writing, and the response ldter
             was signed by an accepting official; and
         (7) Donations were valued and recorded in the general ledger upon receipt.

Gift Fund Expenditures

To assess the Corporation's compliance with its expenditure policies, applicable 1 s,
and regulations, we reviewed $1,161,842, or 91                  of the expenditures mad in
fiscal years 2000 through 2003. Once funds are committed by an authorized official, t ey
can be used by OPS or employees authorized to use government purchase cards to m@e
purchases. These funds can also be used by the Corporation and its Service Center$ to
                                                                                                       H
issue grants, or to pay for other activities such as training for the Martin Luther King o a y
of Service. We reviewed 86 transactions and expenditures, or 26 percent, of $31
transactions from fiscal years 2000 through 2003, as follows:
         Breakdown of Transactions                         Breakdown by Amount Reviewed
                Reviewed                                         (Ddlonr in tAoaswan&)




    B! Grants   OPS    PUIChLSeRrwd Cads      Other        Grants   .
                                                                    OPS     Purchudhavel Cuds     Other




2
 For this audit, the OIG significantly expanded the audit sample size beyond the size used in a typical atdit
to ensure the accuracy of the audit's findings. Only 9 percent of Gift Fund monies expended during the
period were not audited, and this percentage consists of many small dollar transactions.
Audit of the Corporation for National and Community Service's Gift Fund
Audit Report 04- 13
Page 4

We performed our audit in accordance with generally accepted Government Audit ng
Standards issued by the Comptroller General of the United States.                     1
An exit conference was held with Corporation management on June 18,2004. The iss
presented in this report were discussed. The Corporation concurred with all of
recommendations in its response to the drafi report.

Results                                                                               ~
                                                                                      I




In our opinion, the Gift Fund account balance is fairly
financial statements. The Corporation's policies comply with laws and
However, the results of our tests of compliance disclosed instances of
with Corporation policies and procedures for which we are
action.

1.     Some users who are allowed access to the Corporation's Moment
accounting system to approve the expenditure of Gift Funds have not been
such authority, as required by CFO policy.

According to the CFO policy for acceptance and use of Gift Funds, the CEO of dhe
Corporation has the authority to solicit, accept or reject, and expend a donation. dhe
CEO may delegate these authorities to other officials of the Corporation, but further
delegations by those officials are not permitted. All delegations of authority must be
made in writing, reviewed by the Office of General Counsel, and retained in the Office of
the CFO. Delegations are effective for a period not to exceed one year and must be
confirmed annually and in writing by the CEO.

W e compared the list of employees with Momentum user rights to the list of employqes
to whom the CEO has delegated authority. Three employees can currently authodze
expenditures in Momentum, but have not been delegated the authority by the CEO to
make Gift Fund expenditures. To ensure compliance with the CFO policy, we
recommend updating access procedures for Momentum to limit Gift Fund approqal
access to only those officials to whom the CEO has delegated the authority to expeod
Gift Fund donations. Alternatively, we recommend that the CEO delegate authority to
expend Gift Fund donations to the three individuals who can currently authorize G'ft
Fund expenditures in Momentum: the Deputy CFO for Financial Management, t e
Budget and Trust Operations Executive Officer, and the Budget and Trust Operatiobs
Administrative Specialist.
                                                                                          e
                                                                                   I


2.      Acceptance letters were not available.

We reviewed 12 donations and noted that four acceptance letters were not available. P/er


                                                                                      i
CFO Policy 1029, Gifi Fund Operating Procedures, Acceptance of Offer, "[wlhen n
offer is accepted, the accepting official . . . must forward all relevant documents (t e
offer, recommendation transmittal, and acceptance letter) to the Accounting Departm t
for informational purposes only. No financial or accounting activity will take place uniil
the donation is actually received. "
Audit of the Corporation for National and Community Service's Gift Fund
Audit Report 04- 13
Page 5



Corporation policy requires that acceptance letters include the following information:

        (1) An acknowledgment of receipt of the offer;
        (2) A brief description of the offer and any purpose or condition that the off                 ror
            specified for the use of donation;
        (3) A statement either accepting or rejecting the donation; and
        (4) A statement informing the donor that any acceptance of services or proF                    :rty
            cannot be used in any manner, directly or indirectly, that endorses the don(               -'s
            products or services or appears to benefit the financial interests or busi                 ess
            goals of the donor, and that final valuation for the Corporation's accoun                  ing
            purposes will be made by the CFO.

We recommend that the Corporation respond to each offer in writing, in accordance qith
CFO Policy 1029, Section (III)(A). The CFO's audit also noted instances wh/ere
acceptance letters were not sent as required or were not sent in a timely manner. The
CFO recommended revising Gift Fund procedures to require that all donations be entefed
into the CEO-controlled correspondence3 upon receipt to ensure that acceptance letders
are sent in a timely manner.

3.      The Corporation did not comply with expenditure policies in some instances.

We reviewed 86 Gift Fund transactions and noted the following instances of
noncompliance with Gift Fund expenditure policies:

     a. We found one instance where an employee in the CFO Budget Office approved
        an obligation for an expenditure related to USA Freedom Corps, and the Deppty
        CFO for Financial Management authorized the actual payment. However, neither
        of these individuals has been authorized by the CEO to approve the expendi@re
        of Gift Funds. CFO Policy 1029, Gift Fund Operating Procedures, Section
        (III)(E)(l), stipulates that "[tlhe use of donations must be authorized by: a
        Corporation employee with the delegated authority to expend such funds."
        During a discussion of this audit's findings, the Deputy CFO for Finanqial
        Management commented that since an authorized official approved the
        expenditure by signing it,4 processing it into Momentum by non-delegated
        individuals is not a problem. As a result, Gift Fund expenditures can b e
        authorized and made by employees without authority to do so. The Corporation
        has not complied with Policy 1029, Section (III)(E)(l), and we recommend that
        the Corporation comply with this policy.

     b. We found one instance where an expenditure to support the National Dirpct
        Conference in San Diego, California, on February 11-14, 2002, was income
        charged to an account restricted to the Martin Luther King Day of

  CEO-controlled correspondence refers to those letters received by the CEO's office that require an
immediate and thorough response.
4
  This expenditure involved a July 2002 memorandum of agreement, which was not approved by an
authorized expending official until March 12. 2004.
Audit of the Corporation for National and Community Service's Gift Fund
Audit Report 04- 13
Page 6

        initiatives. Section (III)(E)(2) of CFO Policy 1029 requires that Gifi
        expenditures comply with the Corporation's policy for acceptance and use
        Funds, which states, ''[all1 donations will be used to further the mission
        of the Corporation. Restricted donations will be used as nearly as
        accordance with the terms of the donation." In this instance, the
        not expend Gifi Funds according to the terms of the donation.
        the Corporation comply with Policy 1029, Section
        transaction by removing the expenditure from the account
        Luther King Day of Service initiatives, and recording it in
        the miscellaneous unrestricted account).

     c. We attempted to verify compliance with Martin Luther King Day of ~ e d i c e
        (MLK) grant terms and conditions, which require the grantee to submit a fibal
        Project Progress Report within 90 days after the end of the grant period. We did
        not receive requested copies of progress reports for our sample of 18 grants isslped
        to support MLK initiatives for 2000 and 2001. Office of Management and Budbet
        circulars and Corporation grant provisions require the grantee to submit to the
        Corporation timely progress and financial reports at the conclusion of the projlect
        period. Without Project Progress Reports, we cannot verify that grantees we
        complying with grant requirements. The Public Affairs staff, which may pot
        typically oversee and monitor grantee activity, has been responsible for
        monitoring MLK grants. We recommend that personnel who have programmgtic
        oversight and monitoring responsibility receive appropriate training in monitodng
        grantee activity to ensure that grantees are complying with the terms of their grbnt
        agreements.

4.       Additional Recommendation

Based on our review, it appears that when Gift Funds are used, OPS follows procurement
procedures that are consistent with the Federal Acquisition Regulation (FAR) and
Corporation Policy Number 350, Procuring Supplies and Services, dated June 26, 2001.
The FAR applies to appropriated funds but does not apply to nonappropriated funds. ?he
Counsel to the Office of Inspector General believes that Gift Fund donations
appropriated fimds, and FAR procedures should apply to Gift Fund procurements
the provisions of the National and Community Service Trust Act, as well as
Comptroller General decisions. The Corporation's General Counsel does not concur
this opinion. Nonetheless, according to the General Counsel it is the
policy to follow procurement procedures that are consistent with the
procuring any goods or services, notwithstanding the status of the funds.

We recommend the Corporation change the Corporation's Acceptance and Use of Gift
Fund policies and procedures to require adherence to the FAR when procuring goods r/nd
services.                                                                              I
Audit of the Corporation for National and Community Service's Gift Fund
Audit Report 04: 13
Page 7

If you have any questions about this report, please contact me at extension 390.

                                             Sincerely,



                                         J. Russell George
                                         Inspector General


Copy to:
Andrew Kleine, Acting Chief Financial Officer
Bill Anderson, Deputy Chief Financial Officer for Financial Management
Frank Trinity, General Counsel
                                                                                        Appendi:


    STATUS OF RECOMMENDATIONS IN PRIOR OIG AUDIT REPORT 97-30

    Recommendations                                    Status
    The Corporation should establish policies that
    clearly articulate:

    Who may solicit gifts, under what authority,       Management has prepared policies and
    and what constitutes an acceptable gift.           procedures to address this issue.
                                                       This issue is closed.

    What constitutes an appropriate Gift Fund          Management has prepared policies and
    expenditure.                                       procedures to address this issue.
                                                       This issue is closed.

    How receipts and expenditures will be recorded     Management has prepared policies and
    to ensure compliance with statutory, donor, and    procedures to address this issue.
    other restrictions.                                This issue is closed.

    That all Gift Fund transactions are to be          Management has prepared policies and
    recorded in the general ledger in a timely         procedures to address this issue.
    manner.                                            This issue is closed.

    What supporting documentation for Gift Fund        Management has prepared policies and
    receipts and expenditures will be maintained.      procedures to address this issue.
                                                       This issue is closed.
    The Corporation should ensure that staff           Management implemented corrective action to
    processing the transactions are familiar with      address this issue.
    the policies and procedures, and are required to   This issue is closed.
    verify that appropriate approvals have been
    obtained before processing a deposit or
    payment to the Gift Fund.

    The Corporation should correct FY 1995 and         Management implemented corrective action to
    1996 expenditures by removing the                  address this issue.
    inappropriate administrative expenses from the     This issue is closed.
    Gift Fund and recording them in the
    appropriate appropriations accounts, and by
    depositing all funds generated by the sale of
    promotional goods into the U.S. Treasury's
    general fund as miscellaneous receipts.
L
    The Corporation should report to the President     The Corporation disagreed with this
    and the Congress that its unrestricted gift        recommendation. The OIG did not concur.
    expenditures exceeded unrestricted funds           Our audit included a review of restricted and
    available.                                         unrestricted receipts and expenditures. Based
                                                       on our tests we found no instances where
                                                       unrestricted gift expenditures exceeded
                                                       unrestricted funds available.
                                                       This issue is closed.
                                                                                           Appendix B




                                                          July 22,2004



     The Honorable J. Russell George
     Inspector General
                                                                                                   1
     Corporation for National and
       Community Service
$
.-   Suite 830
     Washington, DC 20525

     Dear Mr. George:

            Thank you for the opportunity to comment on the draft report of your audi
     the Corporation's Gift Fund for fiscal years 2000 through 2003. 1 am pleased that 1
     Office 0) Inspector General (OIG) audit found that the Gift Fund balance is fairly
     presented on the Corporation's financial statements and that there were no signififant
     weaknesses relating to the Gift Fund. This is an especially noteworthy accomplishlment
     in light of the number of issues OIG identified when it last audited the Gift Fund (DIG
     Audit Report 97-30).

            The audit report includes several recommendations on how the Corporation can
     improve its Gift Fund operations. The Corporation generally agrees with these
     recommendations and is revising its policies and procedures accordingly. I have
     enclosed a status report on the Corporation's actions to date regarding the
     recommendations.




                                                            a
                                                          Sincerely,



                                                          David Eisner
                                                          Chief Executive Officer

     Enclosure

     cc:   Michelle Guillermin, Chief Financial Officer and
            Acting Chief Operating Officer
           Frank Trinity, General Counsel


                              1201 New York Avenue. NW * b h s h i n g t o n . DC 20525
                                    202-606-5000    w~u:nationalservice.org
                              Senior Corps   * AmeriCorps *   Learn a n d Serve .4merica
                                                              ctive Actions




                                                              3
                  OIG Recommendation                                                   Status                I
    The Corporauon should update access procedures for        The Corporauon's Gift Fund pohcy k m t s t11
    h.1omentum to h i t Gift Fund approval access to only     approval of expendttures from the Fund to st If
    those officials to whom the CEO has delegated the         pohcv alsodelegated
                                                              esphc~tly  recogtuzes
                                                                                  such  authority
                                                                                     that         by the C E I . The
                                                                                          staff processing
     author^^ to expend Gift Fund donations.
    "Ilternatively, the C E O should delegate authoriq to  transacuons In the accounung system mav be ld~fferent
    expend Gift Fund donations to the three individuals    then the staff who have approval author~ty,b$t was
    who can currently authorize Gift Fund expendtures      less than clear on this point. T h e C o r p o r a t l o ~
    in hlomentum: the Deputy C F O for Financial           rccentl) rev~sed~ t polmess         and procedures fol- the
    Management, the Budget and Trust Operations            Gift Fund ( ~ n     draft) The reused procedures clearly
    Execuuve Officer. and the Dudgrt and Trust             d ~ s t ~ n g u ~between
                                                                             sh        alr/hon;rng expenditures fnom the
    Operations :\dmmstrauvc Specialist.                    Fund ;undprasa.~?nyan authorized transaction ih the
                                                           financial management-          system. (Corrective acgon
                                                           complete pendng issuance of revised procedqres.)
   'The Corporation should respond to each gift offer 111  The Corporation has revised its Gift Fund pobcies
   writing. In accordance with Corporation policy.         and procedures. T h e revised draft lncludes a
                                                           recprement that g ~ f t sbe logged In to the CEO
                                                           controlled correspondence system to ensure tlhat
                                                           acceptance letters are sent In a umely manner.
                                                           (Corrective actlon complete pending issuance lof
                                                           rev~sedprocedures.)
   The Corporation should comply \wth ~ t Glits    Fund    The C o r p o r a ~ o nhas developed a check hst to ensure
   operaung procedures.                                    that adherence to Gift Fund operaung procedores is
                                                           properl) documented. In addtion, thc revised draft
                                                           G ~ f ttw n d pohclcs and procedurrs were updated to
                                                           retlrct the currcnt operating environment (e.2, the
                                                           mplementauon of the hlomentum f i n a n c d
                                                           management system and estabhshment o f Exeicuuve
                                                           Offices) and clearlv d ~ s u n g u ~ sbetween
                                                                                                     h       autlio~lzlng
                                                           cupendmres from the Gift Fund and processitlg an
                                                           authorized transacuon ln hlomentum (Correctwe
                                                           action coinplcte pendtng Issuance of revised
                                                           ~rocedures.)

I  T h e Corporauon should retnovc the expenditure fi-on1 This transaction was recoded to the ktiscellan~ous
    the Martin Luther King Day of Service Gift Fund
!I subaccount and record it in the Mscellaneous Gift
                                                           ArneriCorps Gift Fund subaccount. (Correctiv~action
                                                           complete)
    Fund subaccount.
   Personnel who haye programmatic oversight and           Personnel who have programmauc oversight df MLIC
    momtoring responsibdq receive appropriate training     Day grants wdl receive tralnmg in monltorlng grantee
    in monitoring grantee activity to ensure that grantees acuvtty to ensure comphance wlth the terms o f grant
    are complying with the terms of their grant            agreements.
    agreements.
    T h e Corporation should change the Acceptance and     As noted m the report, the C o r p o r a ~ o nfollo\i$ the
    Use of Gift Fund p o k e s and procedures to requlre    FAR when procuring goods or senrlces w ~ t hg~pt
    adherence to the Federal Acquisition Regulauon          funds. A s part of ~ t currents       revisions to the @ft
    (FAR) when procuring goods and services.                Fund pollcy the Corporauon has ~ncludeda
                                                            requirement In the pohcy to follow the applrca
                                                           proolslons of the FAR when procuring goods
                                                            servlceb w ~ t hGift Funds. (Correcuve acuon
                                                           p e n d n g issuance of revised procedures.)
